IN THE SUPREME COURT OF THE UNITED STATES

08/19/20

VALENTIN SPATARU, Petitioner,
vs.
PEDRO ANTONIO SUAREZ and SVITLANA KHRAMTSOVA, Respondents.

On Petition For Writ Of Certiorari to the
Supreme Court of the State of Florida

FILED
AUG 1 9 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

PETITION FOR WRIT OF CERTIORARI

by Valentin Spataru, pro se
c/o CILK - Center for Independent Living
103400 Overseas Hwy. #243, Key Largo, FL 33037
Mobile cell phone: 305 615 0061
Email: valentin.spataru.macc.cpa@gmail.com , valespa@outlook.com

To the Honorable Chief Justice Charles T. Canady of the Supreme Court of the State of Florida:

RECEIVED
AUG 2 6 2020
OFFICE OF THE OLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
Whether Florida judges may disregard my filings and prior cases, and may not exercise the standard
of care requested by law and expected from professionals in the USA and State of Florida pursuant to
Rule 7.110.(e) of the Florida Small Claims Rules.
Whether "Lex iniusta non est lex" and judges have the authority and the obligation to refuse to
enforce unjust rules, such as dismissal for my naming appeal other that "Notice of Appeal".
Whether U.S. Const. Amend. IX -which protects rights not enumerated in the Constitution- protects
my right to benefit from the fairest, best and newest practices in judiciary procedures.
Whether Florida legislators at the state level have been lobbied and paid illegally by attorneys to
complicate unreasonably and unjustly the rules of litigation procedure for a pro-se litigant with
cognitive injuries to lose case.
Whether Florida judges may profiteer and discriminate against me, and allow the Respondents not to
return my money and compensate me for the suffering they caused me.
If you do not order Respondents to return my money and compensate me for the suffering they caused
me, then they will defraud others.
These questions are of great national importance due to the high number of citizens who come to
Florida.
TABLE OF CONTENTS
QUESTIONS PRESENTED
iii

TABLE OF AUTHORITIES

1

PETITION FORA WRIT OF CERTIORARI
OPINIONS BELOW

1

JURISDICTION

2
Page i

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

4

STATEMENT OF THE CASE

7

REASONS FOR ALLOWANCE OF THE WRIT

9
19

CONCLUSION

20 (A-1)

APPENDICES
Emails to/from CIL about the SCC's NLP-NOH letter which I have not received

A-1

Emails to Pastor Combs

A-2

Doctor Dr. Carlos Sandoval's diagnosis of my major depression

A-3

Proof of service by mail on 3-21-14; signed return receipts•

A-5

Proof of service by emails -in chronological order-; and proof of my efforts to obtain the
guarantee car, and to locate the Respondents•

A-6

To:Captain Peter sailawaymiami@gmail.com

A-6

To :LANASOVA@yahoo com

A-7

From RPost which certifies messages

A-9

To MDPD:csbinfo@mdpd.com, pcbinfo@mdpd.com, plbinfo@mdpd.com

A-10

To NSA: nsapao@nsa.gov

A-11

To Collection Agencies

A-11

To Attorney Sergiu Gherman.

A-12

To ServeNow

A-13

To Ed Roberts, contractor of KHRAMTSOVA's services as real estate agent•

A-14

To:Captain Peter,Svitlana Khramtsova/Lisa- LANASOVA@yahoo.com

A-15

To MDPD: csbinfo@mdpd.com

A-16

From Attorney Kevin Dugan hired by SUAREZ

A-18

Page ii

A-18

To: sgherman@ghermanlaw.com
Here are the details of another fraud by the Respondents, for around $32,400, in which the
Respondents have had probably also other conspirators to fool people

A-18

Contract of loan, including the clause for the Respondents to guarantee with a car

A-19

$5,000 cashier's check that I gave them and they cashed

A-21

DLs of the Respondents

A-21
A-22

Opinions below
TABLE OF AUTHORITIES

CASES
Altimeaux v. Ocean Construction, Inc., 752 So. 2d 670 (Fla. Dist. Ct. App. 2000)

11
1, 13, 15

Baggett v. Bullitt, 377 U. S. 360, 375
Bellsouth v. Unemp. Appeals Com'n, 621 So. 2d 562 (Fla. Dist. Ct. App. 1993)

11

Commonwealth Fed. Say. and Loan Ass'n v. Tubero,569 So. 2d 1271, 1273 (Fla. 1990)

12

Elmariah v. Assocs. Fin. Servs. Corp., 401 So.2d 929, 929 (Fla. 2d DCA 1981)

11
5

Faretta v. California, 422 U.S. 806 (1975)
Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238, 248

1, 13, 15

Holmberg v. Armbrecht, 327 U. S. 392, 396

1, 13, 15
11

In re G-Y-R, 23 I N Dec. 181 (BIA 2001)
Perrier v. Bonagura, 11 Fla. L. Weekly Supp. 749 (Broward Cty. Ct. 2004) (Lee, J)

1, 10

Puckett v. Cox, 456 F2d 233 (1972 Sixth Circuit USCA)

15

Robinson v. Villarejo, 920 So. 2d 206 (Fla. Dist. Ct. App. 2006)

11

Torrey v. Torrey, 815 So. 2d 773 (Fla. Dist. Ct. App. 2002)

Page iii

1, 11

Urbina-Osejo v. I.N.S, 124 F.3d 1314 (9th Cir. 1997)

1, 11

CONSTITUTION
U.S. Const. Amend. I

3, 18

U.S. Const. Amend. VII

3, 18

U.S. Const. Amend. VIII

3, 18

U.S. Const. Amend. IX

3, 18

U.S. Const. Amend. XIV, sec. 1

2, 18

STATUTES
18 U. S. C. § 241

2,3,17

18 U. S. C. § 242

2,3,17

18 U.S.C. § 3331(a)

2, 17

18 U.S.C. §§ 1961-1968 (RICO)

3, 18

29 U.S.C. § 794

3, 18

34 C.F.R. Part 104.4

4, 17

34 U.S.C. § 10228

3, 17

42 U.S.C. § 12131, et seq

4, 18

42 U.S.C. § 1983

3, 18

42 U.S.C. § 1985

3, 18

42 U.S.C. § 2000d, et seq

4, 17
15

Rule 8(f) FRCP
Rule 7.110.(e) of the Florida Small Claims Rules
The United Nations' Universal Declaration of Human Rights

Page iv

2,10,11
4

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions this Court for a writ of certiorari to review the judgment below.
3

OPINIONS BELOW
The Judges of the Supreme Court of Florida (SCF), decided on 05/21/2020 that SCF lacks jurisdiction
to review an unelaborated decision from a district court of appeal. A copy is attached at Appendix 10.1.

6

The Judges of Florida's Third District Court of Appeal (3DCA) affirmed -see Appendix 10.2.- on
March 18, 2020, the opinion below. I have appealed to SCF because the decision disregarded prior
legal cases, such as Torrey v. Torrey, 815 So. 2d 773 (Fla. Dist. Ct. App. 2002) and Perrier v. Bonagura,

9

11 Fla. L. Weekly Supp. 749 (Broward Cty. Ct. 2004) (Lee, J), and expressly affects a class of
constitutional or state officers.
The Judges of the Appellate Division of the Circuit Court of the 11th Judicial Circuit of Florida (CC) in

12

and for Miami-Dade County dismissed my action abusively on August 22, 2019, for lack of
jurisdiction due to my late appeal -see Appendix 10.3-, even though I requested CC and SCC to
consider my "Motion to Retain Case on Docket and for Default Final Judgment" as "Notice of

15

Appeal"; indeed, their decision disregarded prior legal cases, such as Torrey v. Torrey, 815 So. 2d 773
(Fla. Dist. Ct. App. 2002). Moreover, in addition to the stress caused by Respondents, I was suffering
more and recovering after new injuries -see cases Valentin SPATARU vs. FAA, et. al. at the Federal

18

court in Miami, no case no. yet, and Valentin Spataru vs. Wal-Mart ..., case no.s 3D19-732, 2017000394-AP-01 & 2016-006839-SP-26-, thus I was not able to know all rules, including to name my
request "Notice of Appeal". Truly, 'Courts must often "exercise [their] equity powers ... on a case-by-

21

case basis," Baggett v. Bullitt, 377 U. S. 360, 375, demonstrating "flexibility" and avoiding
"mechanical rules," Holmberg v. Armbrecht, 327 U. S. 392, 396., in order to "relieve hardships ...
aris[ing] from a hard and fast adherence" to more absolute legal rules, Hazel-Atlas Glass Co. v.

24

Hartford-Empire Co., 322 U. S. 238, 248.
Judge Cuesta of the Small Claims Court (SCC) of the 11th Judicial Circuit of Florida (CC) in and for
Miami-Dade County dismissed -see Appendix 10.4.- my action abusively on Nov. 09, 2016, because I

27

did not answer her Notice of Lack of Prosecution (NLP) -see Appendix 10- even though I had not
received the NLP. Her decision disregarded prior legal cases, such as Urbina-Osejo v. I.N.S, 124 F.3d
1314 (9th Cir. 1997).

Page 1/19

Indeed, by having disregarded prior cases, the judges below (at SCF, 3DCA, CC and SCC) have proved
their abusive adversity and discrimination against me due to my disabilities, political affiliation,
3

religion, ethnic or national origin, domicile, first spoken language, race, or other illegal causes; and
they have proved illegally-undisclosed common interests with the Respondents, such as common
investments or profiteering -respectfully, I request you to ask the FBI, NSA, etc. to investigate them-.

6

Truly, judges have been liable for criminal acts committed under "color of law", pursuant to 18 U. S. C.
§ 242, and for conspiracy against rights, pursuant to 18 U. S. C. § 241. As provided in 18
U.S.C. § 3331(a), the U.S. District Court must impanel a special grand jury when requested -and I

9

request it for all judges involved in my case, and for all legislators involved in voting of the abusive,
unethical laws- to investigate whether organized crime is occurring in the community in which it sits.
This could include, for instance, organized drug activity or organized corruption in government.

12
JURISDICTION
This petition is timely filed. The date on which the highest state court, the Supreme Court of Florida,
15

decided that it lacks jurisdiction to review an unelaborated decision from a district court of appeal was
05/21/2020. A copy of that decision appears at Appendix 10.1.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a). My questions and case are of

18

national importance, as many persons come to Florida.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
21

Rule 7.110.(e) of the Florida Small Claims Rules: "All actions in which it affirmatively appears that no
action has been taken by filing of pleadings, order of court, or otherwise for a period of 6 months shall
be dismissed by the court [...] unless [...] a party shows good cause in writing [...]."

24

U.S. Const. Amend. XIV, sec. 1: All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the United

27

States; nor shall any State deprive any person of [...] property [including my money taken by the
Respondents who are actually part of a conspiracy -which includes below judges- to defraud others],
without due process of law; nor deny to any person within its jurisdiction the equal protection of the
Page 2/19

laws.
U.S. Const. Amend. VII: In Suits at common law, the right of trial by jury shall be preserved.
3

U.S. Const. Amend. VIII: Prohibits cruelty.
U.S. Const. Amend. IX: Protects rights not enumerated in the Constitution, including my right to
benefit from the best and newest practices in judiciary procedures.

6

U.S. Const. Amend. I: Guarantees the right to petition the government.
18 U.S.C. §§ 241, 242: It is a crime for one or more persons acting under color of law willfully to
deprive or conspire to deprive another person of any right protected by the Constitution or laws of the
United States.
18 U.S.C. §§ 1961-1968 (RICO) - The Racketeer Influenced and Corrupt Organizations (RICO) Act
provides for extended criminal penalties and a civil cause of action for acts performed as part of an

9

ongoing criminal organization. The RICO Act focuses specifically on racketeering and allows
the leaders of a syndicate to be tried for the crimes they ordered others to do or assisted them in doing.
29 U.S.C. § 794 - Nondiscrimination under Federal grants and programs.
34 U.S.C. § 10228 - Prohibition Against Discrimination on ground of race, color, sex, or national origin
- The Office of Justice (OW) Program Statute.
42 U.S.C. § 1983, Reconstruction Civil Rights Act: "Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia, subjects,
or causes to be subjected, any citizen of the United States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be
liable to the party injured in an action at law, suit in equity, or other proper proceeding for redress." It
allows citizens to sue governmental officials, including judges, and their employers, the cities, counties
and states, for damages caused by them; it is enough to show that the official, acting under color of
state law, caused the deprivation of some specific federal right. Punitive damages are available against
individual Respondents where a Petitioner establishes actions were either intentional or committed with
reckless or callous disregard for the Petitioner's rights. Significantly, punitive damages may be
available against individual Respondents even absent actual damages.
42 U.S.C. § 1985 - Prohibition Against Discrimination on ground of race, color, or national origin. It

Page 3/19

renders conspiracies civilly actionable.
42 U.S.C. § 2000d, et seq. - Prohibition Against Discrimination on ground of race, color, or national
origin - Title VI of the Civil Rights Act of 1964
42 U.S.C. § 12131, et seq. - Prohibition Against Discrimination on ground of disabilities - Title H of the
Americans with Disabilities Act, The Public Health and Welfare Title
34 C.F.R. Part 104.4 - Section 504 of the Rehabilitation Act of 1973: It prohibits discrimination against
people with disabilities in programs that receive federal financial assistance ("no qualified handicapped
person shall, on the basis of handicap, be excluded from participation in, be denied the benefits of, or
otherwise be subjected to discrimination under any program or activity which receives Federal
financial assistance").
The United Nations' Universal Declaration of Human Rights forms part of customary international law,
thus applies in my case, as I was born outside the USA -I became a citizen of the USA by naturalization
3

in 2002- in Romania -a current member of NATO and UE- and includes:
Article 1. [...] act towards one another in a spirit of brotherhood.
Article 5. No one shall be subjected to torture or to cruel, inhuman or degrading treatment or

6 punishment.
Article 8. [...] effective remedy by the competent national tribunals.
Article 10. [...] independent and impartial tribunal."
9
INTRODUCTION

12

Https://www.supremecourt.gov/filingandrules/electronicfiling.aspx writes "Filings from pro se
parties are submitted only on paper, but will be scanned and made available electronically on the
Court's docket", thus I submit only one paper copy of my petition to save valuable resources by not
printing and mailing more copies; please let me know if you need more paper copies. A digital copy of

15

this PWC is available also at my public storage at http://tiny.cc/8ffksz.
Petitioner will be referred to as "Petitioner", or "I" as I, the Petitioner myself, will have written this.
All of the Respondents collectively shall be referred to as "Respondents"; Svitlana Khramtsova shall be

18

referred to as KHRAMTSOVA, Pedro Antonio Suarez as SUAREZ; the Civil Court as CC; the Small
Page 4/19

Claims Court as SCC; other terms and acronyms will be defined as they appear. Items contained in the
records on appeal for my prior action's appeals will be designated by the letters "ROA" followed by the
3

page number(s). I use bold letters to emphasize and ease the reading.
If I do not know who is guilty for a violation, I will use the term "Offenders".
I attest upon penalty of perjury that all my statements and pleadings are true.

6

5. I have been a serious person who has worked hard, aimed for the highest achievements, had many
successes, and my resume proves it:
6. "EDUCATION

9

7. Master of Accountancy, Taxation 08/98 — 12/00
8. University of Georgia, Athens, GA, USA: •Was "Presidential Scholar" for A in each class during my
second semester; •Received merit student loan all semesters.

12

9. Master in Financial Economics and Management 09/92 — 06/97
The Academy of Economic Studies, Bucharest, Romania: *Majors: Finance, Banking, and
Accounting; •Diploma Thesis (The Financial Analysis of the Company) Grade: 9/10 (3.8/4);

15

•Admission Exams GPA: 9.15/10 (3.9/4; top 1.5%; the admission percentage was 16%) •Received
merit scholarship all semesters.
PROFESSIONAL DEVELOPMENT AND QUALIFICATIONS:

18

12. •Licensed Certified Public Accountant (CPA) in GA, USA, in 2003.
13 . HONORS AND ACTIVITIES: •Have volunteered: -for CILK, Key Largo, FL, USA
(www.cilsf. org): have guided Social Security customers regarding their benefits and responsibilities in

21

2013; -for Christian Students Assoc., Bacau, RO: have promoted the Christian living and
spirituality in the city during 2010-2012; -for the International Foundation for Global Studies, Athens,
Georgia, USA: have prepared the fmancial statements, tax returns, and budgets for the years 1998 —

24

2000 •Have placed in the Romanian National Physics Team (the top 15 students of my age group
in the nation) in 1988, and in the top 1-5 positions in regional Physics and Mathematics competitions
in the years 1986-1990."

27

14. I have not been able yet to find an attorney to help me on contingency in my lawsuit against the
Respondents, but in the case Faretta v. California, 422 U.S. 806 (1975), the Supreme Court of the
Page 5/19

United States held that even criminal Respondents have a constitutional right to represent themselves in
legal proceedings; therefore, respectfully, I request you not to dismiss my complaint without proper
3

trial. Indeed, everyone has the constitutional right to proceed without counsel and to be assisted by
court in presenting one's case.
15 . I would like to write more and review my Petition again but I have no more time, as my brain

6

injuries have slowed me very much. Moreover, due probably to my legal actions in Courts for my
injuries and damages, on July 14, 2019, in Miami Beach, FL, two persons -ordered or "suggested" by a
criminal organisation (OrC)- hit my head and my face, which caused me open facial wounds, new brain

9

and body issues and aggravation of old issues -such as headaches, nausea, impaired and slow reasoning
and memory. The emergency CT of my head/brain was done by Mount Sinai Medical Center due to my
pain and visible head trauma -see http://tiny.cc/nar9gz. Respectfully, I request you to ask the Federal

12

USA Attorney and FL State Attorney to prosecute the two attackers for attempted manslaughter, and let
me know ASAP about the result of the case and investigation. Respectfully, I request you to investigate
whether Respondents have been involved in that injuring "incident". Respectfully, I request you to ask

15

legislators in all the USA -and even all the other UN countries- to ban corporal "punishment" -and
especially hits to or other kinds of attacks of the head, mind, and abdomen- at all ages, as it injures and
disables permanently (parents and educators should convince by explaining the bad consequences of

18

improper behavior.) Please pray for my recovery -and that of the offenders-. Due to my brain injuries,
memorizing, remembering, and thinking are painful, thus I am very slow mentally and I need to spend
very much time about what I write, and to check it many times.

21

16 . Respectfully, I request you to accept my motions, forms, pleadings, and other communications as
they are or assist me in correcting or clarifying them; and in the interest of justice, guide me to proceed
properly. Indeed, due to the mental injuries that in part, at least 6%, the Respondents caused or

24

aggravated, such as depression, anxiety, headaches, reading and writing and short-term memory
problems, concentration and attention problems, and other undiscovered yet issues, I am not able
anymore to read and memorize all the rules of procedures promptly and completely. Respectfully, I

27

request you, for proper justice and civilization and for the progress of our states and country, and even
other countries, urgently, to create a new Public Office with a name such as "Public Civil Attorney
Assistance for Mentally Injured Persons", that must offer -free or for credit or loan given from the

30

public budget- professional, independent legal help in civil cases to victims like me, who became
cognitively impaired and do not have anymore the necessary mental capacities promptly to prove their
Page 6/19

complaints.
17. Respectfully, to save valuable resources by not printing and mailing, I request you to send me all
3

your communications by emails only, and to allow me to file all my future documents by using the
Court's electronic system.

6

STATEMENT OF THE CASE
1. At all times material, Respondents were suijuris; Petitioner was and is sui juris.
2 . I met SUAREZ in Nov. 2012 when I bought a small sailboat from him. He stated that he and his

9

12

partner, KHRAMTSOVA, wanted to buy a bigger sailboat for themselves. In Dec. 2012, SUAREZ
asked me for a short-term loan. I lent the Respondents $5,000 in Dec. 2012 until Jan. 15, 2013. They
signed the contract to return to me the $5,000 and half of my related bank fee on Jan. 15, 2013 plus a
bonus ,and to guarantee the loan with one of their vehicles; see the contract in the appendix -also in the
Court's computer server (first, log in your Court account) at https://www2.miamidadeclerk.com/ocsNiewerHTML5.aspx?QS=B6%2f9EwnZlIiih%2bgqiU8rawLJW

15

%2bj4E30XGWoN6L
%2b82TkMiKjL6tNMPLlsoiigHFhMOK6wXurxArmsj6sOLUzGFDyKpztQ46aq2ZshEHmAnJBz7z2

18

9w%2b1%2fRckEYcvr6SIyqRtZktD1frvktlD089SJqnDo36YsQhJ%2fe7%2fEZSOI7E4RbYNRh%2b
%2b384j1f)/02b13rturFAh4TKmESXCdlyfyZ%2bwfRrG4%2bvfMsmsk (from https://www2.miamidadeclerk.com/ocs/Search.aspx); and at my public storage, (please include the "_" at the end)
https://ldrv.ms/b/s!AoQWyv0QcbRY1VV6T3JH1ZjaY0S_ for a more clear picture-. Why isn't the

21

copy in ROA for my action's prior appeals, especially appeal 2017-266-AP-01? Respectfully, I request
you to investigate and fix the problems with the clerks and SCC.

24

3. The Respondents did not give me back any money. They breached their contract to return my money.
The Respondents had and have no excuse for the breaches of the contract. Moreover, when I needed a
place to live and called them, they did not give me at least a little space for a cot or couch in their home
until they would have returned my money.

27

4. The Respondents guaranteed with one of their vehicles which had a value of almost $5,000, VIN
KNDUP131826261691, plate AVS6916, that they would return the $5,000 to me on Jan. 15, 2013. See
Appendix 7 for the contract which includes the guarantee clause. They fooled me with elaborate acting

Page 7/19

to like, respect, and trust them, thus I had not registered the contract at the Florida Department of
Highway Safety and Motor Vehicles (DMV). After they did not return my money, and when I requested
3

6

in February 2013 the guarantee vehicle, unlawfully, they did not give me the guarantee vehicle. In
addition, even though they assured me that they would return my money if they sold the guarantee
vehicle themselves, they sold it themselves without notifying me, and did not return my money. Thus,
they breached their guarantee clause of the contract too. The Respondents had and have no excuse for
the breaches of the guarantee contract.

9

By breaching all clauses of the contract, the Respondents caused me the loss of $5,000 plus bank
fees, court fees, loss of opportunities and time, loss of interest, and psychological and emotional pain
and suffering.

12

I have proved all the elements of the cause of action for the breach of the contract by the
Respondents, more than likely: 1) The formation of a contract -see Appendix 7- between me and the
Respondents; the contract has definite terms to be enforced, such as the sum, $5,000, that I lent them,
and the deadline date, Jan. 15, 2013, when they had to pay back to me the $5,000 plus half a bank fee

15

18

plus $500 appreciation bonus, 2) Performance by me; I lent them $5,000 in Dec. 2012. I gave them a
cashier's check -see Appendix 8- which I purchased from Bank of America, 3) Failure to perform by
the Respondents; they did not pay any sum back to me, and 4) My damages; the $5,000 I loaned them
plus $75 of bank fees, plus court fees, plus process service fees, plus loss of opportunities and time,
loss of money interest, plus psychological and emotional pain and suffering, which manifest also as
recurring headaches, depression, anxiety, distrust of people.

21

24

7. I have proved all the elements of the cause of action for the breach of the guarantee clause -see
Appendix 7- of the contract by the Respondents, more than likely: 1) Contract; it has definite terms to
be enforced, such as the vehicle which was their guarantee for the $5,000 I lent them -see the guarantee
vehicle's registration in Appendix 7-, 2) Performance by me; I lent them $5,000 in Dec. 2012 -see
Appendix 8-, 3) Breach by the Respondents; indeed, they did not give me the vehicle on Jan. 15, 2013
when they did not pay the $5,037.5 back to me and the appreciation bonus; they had no reasonable

27

excuse for their breach and 4) My damages; the $5,000 I loaned them plus $75 of bank fees, plus court
fees, plus process service fees, plus loss of opportunities and time, loss of money interest, plus
psychological and emotional pain and suffering.

30

8 . The Respondents know about my lawsuit but avoid it criminally. I have paid Police for service of
Page 8/19

process -but Police did not serve them-, and notified many times the Respondents in person, by phone,
emails and mail to return my money or to contact the Court to answer my complaint. I have enclosed
3

the signed return receipts -see Appendix 4- and emails -see Appendix 5- which which prove the
Respondents' knowledge of the lawsuit (for example, on Monday, Jun 16, 2014,

6

<lanasova(4ahoo.com> wrote: "Hello Val, I promise to you that once I receive my check I will
reimburse you"). However, they have not returned my money and not answered to the Courts, which
is criminal contempt of justice and courts. Indeed, the Courts should not accuse me for lack of
prosecution. Please do not allow them to defraud me.

9

9 . I have proved all the elements of the cause of action for infliction of emotional distress (IED) by
the Respondents, beyond a reasonable doubt: (1) Respondents' extreme and outrageous conduct,
including criminal ignorance of my welfare, with either the intention of, or reckless disregard for,

12

15

causing emotional distress, (2) my having suffered severe or extreme emotional distress and (3) actual
or proximate causation. Respondents' conduct was heinous and beyond the standards of civilized
decency, utterly intolerable in a civilized society; it would cause a reasonable person to feel extremely
offended, shocked, and/or outraged. The Respondents' conduct was extreme and outrageous, as I was
vulnerable and the Respondents knew it.

18

10. I have proved all the elements of the cause of action for negligent infliction of emotional distress
(NIED) by the Respondents, beyond a reasonable doubt: 1. The Petitioner must suffer some physical
injury: I suffer from depression, anxiety and headaches which the Respondents caused or aggravated; 2.
Which was a result of a psychological trauma: the Respondents caused me psychological trauma; I do

21

not trust people I do not know well; 3. That resulted after witnessing a negligent injury: I witnessed my
own struggle to find them and recuperate my money; 4. To someone with whom the Petitioner has a
close personal relationship: to my own person.

24
REASONS FOR ALLOWANCE OF THE WRIT

27

1. Abusively, SCC's Judge Cuesta dismissed my case on Nov. 09, 2016 because I had not answered her
09/26/2016 Notice of Lack of Prosecution (NLP) -see NLP at Appendix 1.1- even though I had not
received the NLP; only in December 2016, after the deadline to answer the NLP, I checked the website
of SCC and saw the 11/09/2016 Order of Dismissal (F.W.O.P.), and the 09/26/2016 NLP. Indeed, the

30

dismissal was and is not legal, ethic, fair and correct because I had not received SCC's letter from Sep.
Page 9/19

26, 2016 with the Notice of Lack of Prosecution (NLP) and the Notice of Hearing (NOH), therefore, I
did not know about the warning and the hearing. Moreover, my accidents after 05/09/2013, in 2013,
3

2014, 2015, 2016, caused me memory and other cognitive problems, thus I was not aware of the rules
of procedure that require the Petitioner to resend the old motions when a new judge takes the case -am I
wrong about the rule?-. Due to my injuries, the Social Security Administration (SSA) approved my

6

request for SS Disabilities Insurance (SSDI) benefits -which are only $1027 per month-. In addition, I
was not able to find an attorney to help me on contingency, and I do not have enough money to hire
attorneys by their time.

9

2. Respectfully, I request you to change the rules of procedure, to require a new judge who takes the
case to read the old file and to require courts to notify parties by phone and email about their requests.
In my case, the new judge should have known that the Respondents hid from their victims, including

12

me, and illegally avoided service of my court's documents, thus I was not guilty of lack of prosecution.
Indeed, I had asked the FBI, NSA, Police to locate the Respondents and had been waiting for their
results -see Appendix 5-.

15

3. Moreover, the judge should have thought that I could have been injured and unable to memorize or
remember the rules of procedure, including RULE 7.110.(e) of the Florida Small Claims Rules. In the
interest of proper justice, the judge should have made sure that I would have received her notice, by

18

calling and emailing me. Respectfully, I request you to add it as a rule for all courts.
4. In addition, Judge Cuesta of the SCC disregarded prior legal cases such as Perrier v. Bonagura, 11
Fla. L. Weekly Supp. 749 (Broward Cty. Ct. 2004) (Lee, J). Truly, when plaintiff in the case of Perrier

21

v. Bonagura responded -which I did in my case on 12/09/2016; and earlier also, see SCC's docket- with
a detailed explanation of the difficulty it had had in locating Respondents, the trial court found that
plaintiff had established good cause to avoid dismissal. Indeed, in my case, Respondents have avoided

24

service illegally, have not answered my complaint, and have not come to any hearing. Therefore, I have
asked the court on 06/17/2014, before the NLP, to subpoena information regarding Respondents from
many organizations, including the FBI and NSA, but, illegally, the previous judge has not approved it;

27

furthermore, I have asked by direct emails the FBI and NSA to find and investigate Respondents, and I
have been waiting for their results. If FBI and NSA lack the required resources, I offer to volunteer for
them. If FBI and NSA are biased against me or bribed by Respondents -who are probably involved in

30

other crimes, too, see Appendix 6 for another fraud-, respectfully, I request you to hire private,

Page 10/19

independent, professional detectives (PIPD) to find and investigate Respondents. In addition, I will
search again ASAP for PIPD who will accept payment on contingency. Indeed, I have established good
3

cause to avoid dismissal.
5 . In addition, Judge Cuesta of the SCC disregarded prior legal cases, such as In re G-Y-R, 23 I N
Dec. 181 (BIA 2001). Under In re G-Y-R, the notice of hearing was improper because petitioners never

6

received actual notice. InAltimeaux v. Ocean Construction, Inc., 752 So. 2d 670 (Fla. Dist. Ct. App.
2000), Altimeaux had missed the May 12 hearing because he had not received the notice of hearing and
had not timely appealed because he had not received a copy of the disqualification order. The referee

9

explained that he should file a notice of appeal challenging the May 27 disqualification order. The
UAC had already treated Altimeaux's September 17 letter as a notice of appeal of that order. In the
appeal Robinson v. Villarejo, 920 So. 2d 206 (Fla. Dist. Ct. App. 2006), the Court agreed that the trial

12

court should not have denied Robinson's motion for rehearing without affording her an evidentiary
hearing. See Elmariah v. Assocs. Fin. Servs. Corp., 401 So.2d 929, 929 (Fla. 2d DCA 1981) (reversing
denial of motion for rehearing claiming lack of notice of hearing that resulted in judgment and stating

15

"[t]he question of whether or not notice was received by the appellant or his attorney is of sufficient
import to justify an evidentiary hearing"). The Court in Urbina-Osejo v. I.N.S, 124 F.3d 1314 (9th Cir.
1997), concluded that there was reasonable cause for failure to appear when a person has not received

18

notice of the time and place of the hearing. The Court in Bellsouth v. Unemp. Appeals Com'n, 621 So.
2d 562 (Fla. Dist. Ct. App. 1993), treated Prescott's letter as a notice of appeal and set the case for
hearing before an appeals referee. The Court in Torrey v. Torrey, 815 So. 2d 773 (Fla. Dist. Ct. App.

21

2002), stated that the presumption of receipt is not irrebuttable. a sworn affidavit -respectfully, I request
you to consider my 12/09/2016 "Motion to Retain Case on Docket and for Default Final Judgment" as
my sworn affidavit that I had not received the NLP-NOH- stating that the filing was not received will

24

create an issue of fact which must be resolved by the trial court. Indeed, SCC was abusive; SCC should
not have dismissed my case, but should have sent me another 30 days' notice, according to Rule 7.110.
(e) of the Florida Small Claims Rules, and should have ensured that I will have received the notice by

27

calling and emailing me, too; in addition, SCC should have sent me their notices by email, too, as I had
requested earlier. Truly, I did not know about the NLP until December 2016, after its deadline for me to
act, thus the lack of my timely answer to the NLP was not due to my abandoning the case or my not

30

wanting to follow the request of the SCC, therefore, SCC should not have punished me by dismissing
the case. In addition, SCC should have known about the prior cases, such as In re G-Y-R and Perrier v.
Page 11/19

Bonagura, and about my efforts to locate the Respondents and to follow the court's rules.
Respectfully, I request you to investigate whether SCC's employees have been bribed or had illegal,
3

undisclosed interest against me, and common interests with Respondents -or Respondents' partners in
crimes-, such as common investments, businesses, political affiliation, or other conflicting interests;
and whether they had prejudices against me based on my religion, ethnic origin, area of birth or

6

domicile, first spoken language, race, skin color or other features. Their abusive adversity has affected
my case unfairly and illegally. Respectfully, I request you to ask the FBI, NSA, and other intelligence
agencies (IAs), -or PIPDs if governmental IAs lack the independence-, too, to investigate SCC's

9

employees. My skin's color turns from white to bronze during exposure to sunlight -due to a protective
reaction-, and to white again during lack of sunlight; some white-skin persons, such as, most probably,
Judge Cuesta of SCC, do not tan at all naturally; some tanned-skin persons, such as, most probably, the

12

prior Judge of SCC, Wendell M. Graham, do not whiten at all naturally during winters with reduced
sunshine; most probably, also these differences caused their prejudices against me-; my religion is
Rational, Truly-Scientific Christianity and Human Rights, my political preference is for Ethical

15

Democracy and Ethical, Non-counter-intuitive, Natural, Rational Laws and Rules of Courts; my health
status has been disabled by abusive incidents, I was born in Romania (current member of EU and
NATO; its climate is mainly temperate -but is changing to a mainly subtropical one-), and my ethnic

18

origin is Moldovan-Romanian.
Truly, I had not received the NLP letter which was lost by the USPS or the Center for Independent
Living (CIL) (Phone: (305) 453-3491). CIL received my mail for me, apologized to me in case they

21

mishandled the letter and blamed the lack of resources.
8 . Furthermore, "mere neglect or inadvertence in complying even with court orders essential to a fair
hearing is rarely enough to justify dismissal." Commonwealth Fed. Say. and Loan Ass'n v. Tubero,569

24

So. 2d 1271, 1273 (Fla. 1990). Indeed, when I requested on 12/09/2016 by filing my "Motion to Retain
Case on Docket and for Default Final Judgment" (MRCD), SCC's Judge Cuesta should have allowed
me to proceed with the action or organized a new hearing to clarify the issues instead of having

27

dismissed my case. Respectfully, I request you to consider my 12/09/2016 motion, MRCD, as "Notice
of Appeal", as, in addition to the stress caused by Respondents, I was recovering after new brain
injuries -see cases Valentin SPATARU vs. FAA, et. al. at the Federal court in Miami, no case no. yet,

30

and Valentin Spataru vs. Wal-Mart ..., case no.s 3D19-732, 2017-000394-AP-01 & 2016-006839-SP-

Page 12/19

26-, thus I was not able to know all rules, including to name my request "Notice of Appeal". Truly,
'Courts must often "exercise [their] equity powers ... on a case-by-case basis," Baggett v. Bullitt, 377
3

U. S. 360, 375, demonstrating "flexibility" and avoiding "mechanical rules," Holmberg v.
Armbrecht, 327 U. S. 392, 396., in order to "relieve hardships ... aris[ing] from a hard and fast
adherence" to more absolute legal rules, Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238,

6

248. Indeed, the dismissal was and is not fair and correct.
9 . Because SCC's Judge Cuesta did not answer my motion from 12/09/2016, I appealed to CC on
03/10/2017, which opened case nr. 2017-000081-AP-01. Then, CC granted on 05/10/2017 my "Motion

9

to return my case to the lower court" to go on with my case in the lower court; I filed the motion
because I understood that the lower court would reopen my case.
10 . Afterwards, I asked SCC in my 06/27/2017 "Motion to Continue" (by "continue", I meant "go

12

on", "proceed further", not "postpone", "continuance") to go on with my case but
https://www2.miami-dadeclerk.com/ocs/Search.aspx shows it as "Motion for Continuance" not
"Motion to Continue"; I assume that Judge Cuesta considered it a request to postpone the action

15

because Judge Cuesta did not read my motion which requested to proceed further with my action. I
believe that Judge Cuesta had undisclosed interests which were adverse to me and proper justice. Then,
on 07/03/2017, she issued the "Order denying motion to stay proceedings" because I did not answer her

18

NLP and come to the hearing even though I did not know about her request. I assumed that Judge
Cuesta did not want to go on with my case, therefore, I appealed to SCC, and to CC, within the appeal
period, on 07/13/2017, the decision of SCC to close the case, but SCC did not answer. Respectfully, I

21

request you to notify me whether my first case against the breach of contract is still open at the SCC.
CC opened appeal case 2017-266-AP-01, merged it later into appeal case 2017-81-AP-01, but
dismissed all on 08/27/2019 after more than two years, which was abusive, for improper appeal to SCC

24

("this appeal is dismissed for lack of prosecution for failing to timely file notice of appeal"), which was
unfair and unjust, because , on 12/09/2016, within the appeal period, I requested respectfully SCC to
retain my case by filing my "Motion to Retain Case on Docket and for Default Final Judgment" which

27

the courts should have considered as a legal "Notice of Appeal". Moreover, unfairly for me and proper
justice, SCC did not notify me about the issues with my motion/appeal on 12/09/2016 for me to correct
them. Indeed, the dismissals by SCC and CC were not and are not proper justice, fair and correct.

30

Respectfully, I request you to ask the FBI, NSA, etc. to investigate whether SCC and CC and the other
involved courts have undisclosed common interests with the Respondents, such as common
Page 13/19

profiteering, religion, ethnic origin, country of birth, first spoken language, investments, or businesses
with the Respondents, as their adversity affected my case and the proper justice. I was born in
3

Romania, outside USA, my ethnic origin is Moldovan-Romanian, my language is currently English,
my religion is Scientific, Rational Christianity, my health status is disabled by accidents and attacks.
11 . The Respondents know about my lawsuit but avoid it criminally. I have paid Police for service of

6

process -but Police did not find them, why?-, and notified many times the Respondents in person, by
phone, emails and mail to return my money or to contact the Court to answer my complaint. I have
enclosed the signed return receipts -see Appendix 4- and emails -see Appendix 5- which which prove

9

the Respondents' knowledge of the lawsuit (for example, on Monday, Jun 16, 2014,
<lanasovaayahoo.com> wrote: "Hello Val, I promise to you that once I receive my check I will
reimburse you"). However, they have not returned my money and not answered to the Courts, which

12

is criminal contempt of justice and courts. Indeed, the Courts should not accuse me of lack of
prosecution, because I have been searching as much as possible to locate the Respondents.
12 . Truly, I went in May 2015 in person to SUAREZ's address to serve them; see the details of my

15

report at the Court's computer server, https://www2.miami-dadeclerk.com/ocs/ViewerHTML5.aspx?
QS=B6%2f9EwnZlIiih%2bgqiU8rawLJW%2bj4E30XGWoN6L
%2b82Tm5 1 jrNqSiCwwPjfjusK3ajf5BGfUtDcYHsdOndxic8PE6Je%2bC4KV6BTYBP2qSeXBFx

18 %2bZMK3C66mRIb7o7RvAuEDuIWF3nliGCtj7ZAK278aLlTqj74KVoGW
%2bPqLm3noS5GiGExqsIEvqPZa4Goa3%2bfCFPcfS6CxAafeItPtkWajLaStCPSI5UC. Why is it not
in ROA for my action's prior appeals? Respectfully, I request you to investigate and fix the problems
21

with the clerks.
13 . Furthermore, I requested approval of Service by Publication on 02/24/2014 but Judge Graham
(retired in 2015) did not answer; why? See the details at the Court's computer server at

24

https://www2.miatni-dadeclerk.com/ocs. Again, why isn't the copy in ROA for my action's prior
appeals? Respectfully, I request you to investigate and fix the problems with the clerks.
14 . Moreover, truly, I mailed my Complaint to the Respondents on 03-21-2014 but they did not

27

answer to the Court even though the return receipts were signed. I mailed my Complaint to the address
on the Driver's License for SUAREZ, which was the residence of his mother, where he slept sometimes
to help her -which SUAREZ told me-; and I mailed my Complaint to KHRAMTSOVA's work address

30

at https://www.myfloridalicense.com/LicenseDetail.asp?
Page 14/19

SID=&id=0D4680FD9FF4BD6B5082620F81F5D231 at that time, as the address on
ICHRAMTSOVA's DL was not current. I have given the signed return receipts -see Appendix 4; see
3

them also at my public storage at https://ldrv.ms/u/s!AoQWyv0QcbRYgq43yhFCnzYiQ-uiyg- to the
Clerk of SCC in 2015 but the Court's computer server at https://www2.miami-dadeclerk.com/ocs does
not show the signed return receipts. Why? And why are they not in ROA for my action's prior appeals?

6

Respectfully, I request you to investigate and fix the problems with the clerks and SCC; respectfully, I
request you to ask FBI to investigate and prosecute them if the clerks accepted illegal payments from
the Appellees and threw away the copy of the signed return receipts for me to lose my case.

9

15 . Therefore, the Respondents certainly have known about my lawsuit but they have not answered
to the Court in order to keep immorally, illegally, fraudulently and criminally my money; they did not
come to any hearing requested by the Small Claims Court (SCC) on 06/19/2013, 10/02/2013,

12

11/04/2013, 03/24/2014, and afterwards, which was and is contempt of Court; they should go to jail.
Indeed, the Courts should not accuse me of lack of prosecution, because I have been searching as much
as possible to locate the Respondents, and I have been waiting for reports from MDPD, NSA, FBI.

15

16 . In Puckett v. Cox, it was held that a pro-se complaint requires a less stringent reading than one
drafted by a lawyer (Puckett v. Cox, 456 F2d 233 (1972 Sixth Circuit USCA)) [...] "The Federal Rules
rejects the approach that pleading is a game of skill in which one misstep by counsel may be decisive to

18

the outcome and accepts the principle that the purpose of pleading is to facilitate a proper decision on
the merits." The Court also cited Rule 8(f) FRCP, which holds that "all pleadings shall be
construed to do substantial justice. It could also be argued that to dismiss a [...] lawsuit in which a

21

serious factual pattern or allegation of a cause of action has been made would itself be violative of
procedural due process as it would deprive a pro-se litigant of equal protection of the law [...]. In
a fair system, victory should go to a party who has the better case, not the better representation".

24

http://www.uslawbooks.com/books/prosefederaldecisons.htm. Indeed, I believe that Judges below have
represented secretly the Respondents, which is illegal.
17 . Also, "Courts must often 'exercise [their] equity powers ... on a case-by-case basis,' Baggett v.

27

Bullitt, 377 U. S. 360, 375, demonstrating 'flexibility' and avoiding 'mechanical rules,' Holmberg v.
Armbrecht, 327 U. S. 392, 396, in order to 'relieve hardships ... aris[ing] from a hard and fast
adherence' to more absolute legal rules", Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238,

30

248. The Judges involved in my case below in Florida were unwilling to listen to facts or reasons;

Page 15/19

they favored Respondents illegally also because "Ifludicial selection processes are politically
controlled and closed, frequently giving us judges who are better connected than they are
3

qualified. And once on the bench, these judges reward their friends [forming a criminal
organization (OrC)] and punish their enemies. Although ethical codes require judges to disclose
facts bearing upon their impartiality, they don't always do so. They sit on cases in which they have

6

undisclosed relationships with parties, their attorneys, or have interests in the outcome, and do so
deliberately because they wish to advantage either one side over another or sometimes themselves."
http://www.tulanelink.comitulanelink/sassower_Ola.htm. "The politicization of Florida's courts is a

9

crisis." Editorial, South Florida Sun-Sentinel, https://www.sun-sentinel.com/opinion/editorials/fi-opedit-florida-supreme-court-20181130-story.html. A person is barred from deciding any case in which he
or she may be, or may fairly be suspected to be, biased. The judges involved in my case so far have

12

been biased against my just interests, therefore, respectfully, I request you to bar them from deciding
any of my cases in the future. Cases from different jurisdictions currently apply two tests for apparent
bias: the "reasonable suspicion of bias" test and the "real likelihood of bias" test. One view that has

15

been taken is that the differences between these two tests are largely semantic and that they operate
similarly. "Two [FL] Dade County judges involved in the nation's second largest judicial corruption
investigation were convicted [...] of selling favors from the bench. [...] Judge Harvey Shenberg, 49,

18

was found guilty of racketeering conspiracy and one count of extortion. David Goodhart, 63, a
former judge, was found guilty of racketeering conspiracy. [...] The Government's indictment
accused the four judges of accepting a total of $266,000 in exchange for acts like lowering bail,

21

disclosing the existence of arrest warrants, returning seized property and suppressing evidence. ... The
investigation was the second-largest judicial corruption investigation in American history. The largest
was Chicago's investigation of municipal courts in the early 1980's, in which 67 officials pleaded guilty

24

and 15 judges were convicted." https://www.nytimes.com/1993/04/28/us/2-judges-guilty-in-floridacorruption-inquiry.html. Judicial appointees must be qualified, professional persons of truth and proper
cognitive skills, who hate injustice, rule for the rightful party -even if it hurts their selfish interests- live

27

a healthy lifestyle and detest greed; respectfully, I request you to investigate whether all below judges
have conformed to all the requirements. The current system of disciplining Florida judges, a system
that is answerable only to itself, is ineffective. "If we fail to check the power of the judiciary, I predict

30

that we will eventually live under judicial tyranny." - Patrick Henry, Founding Father of the United
States. Thomas Jefferson said that "whatever power in any government is independent, is absolute also;

Page 16/19

in theory only, at first, while the spirit of the people is up, but in practice, as fast as that relaxes.
Independence [which includes independence from selfish interests] can be trusted nowhere but with the
3

people in mass. They are inherently independent of all but moral law." Thomas Jefferson, letter to
Judge Spencer Roane, September 6, 1819, "The Writings of Thomas Jefferson," edited by Andrew A.
Lipscomb, vol. 15, p. 213 (1904). Therefore, I cannot trust below judges, and I ask you respectfully to

6

order a review of my case by a jury of independent, wise peers, only under the authority of the U.S.
Constitution. Indeed, "evidence at the Founding through the Fourteenth Amendment's adoption
actually shows the civil jury right was a fundamental right, respected by the English, the Founders, the

9

Fourteenth Amendment's Framers, and the states." https://constitutioncenter.org/interactiveconstitution/interpretation/amendment-vii/interps/ 1 25#the-seventh-amendment-today-suja-a-thomas
18. Moreover, "Lex iniusta non est lex" and judges have the authority and the obligation to refuse to

12

enforce unjust rules, therefore, certainly, by having enforced the unjust rules and dismissed my case,
the judges below have proved their abusive adversity to my rights, and their discrimination against my
person due to my disabilities, political affiliation, religion, ethnic or national origin, domicile, first

15

spoken language, race, or other illegal causes; they have had illegally-undisclosed conflicts of interest
-respectfully, I request you to ask the FBI, NSA, etc. to investigate them-; they have proved common
interests with the Respondents, such as common profiteering of my money. Truly, judges have been

18

liable for criminal acts committed under "color of law", pursuant to 18 U. S. C. § 242, and for
conspiracy against rights, pursuant to 18 U. S. C. § 241. As provided in 18 U.S.C. § 3331(a), the U.S.
District Court must impanel a special grand jury when requested -and I request it for all judges

21

involved in my case, and for all legislators involved in voting of the abusive, unethical laws- to
investigate whether organized crime is occurring in the community in which it sits. This could include,
for instance, organised drug activity or organized corruption in government.

24

19. 34 U.S.C. § 10228 and 42 U.S.C. § 2000d, et seq. and their implementing regulations, including
34 C.F.R. Part 104.4, prohibit both individual instances and patterns or practices of discrimination on
ground of disability, race, color, or national origin; and offer individual remedial relief for the victim

27

and changes in the policies and procedures of the agency to remedy violations. I was born outside the
USA -I became a citizen of the USA by naturalization in 2002- in Romania -a current member of
NATO and UE-, thus the judges below considered me a helpless "alien", discriminated against me

30

based on my national origin, color -my skin tans in the sun-, and my disability, and did violated my
rights. Certainly, the judges of Florida's CC, 3DCA and SCF protected Respondents abusively and
Page 17/19

injured me more.
42 U.S.C. § 12131, et seq., 29 U.S.C. § 794, and their implementing regulations, including 28
3

C.F.R. Part 35, Part 42, prohibit discrimination against people with disabilities. The judges below
discriminated against me, a person with disabilities.
The judges below violated 42 U.S.C. § 1983 by acting as governmental officials under color of

6

state law, and injuring me. The judges below caused the deprivation of my federal rights, including
those guaranteed by U.S. Const. Amend. I, VII, VIII, IX, XIV.
The judges below violated 42 U.S.C. § 1985 and 18 U.S.C. §§ 1961-1968 (RICO), therefore,

9

respectfully, I request you also to order all judges below and their friends not to judge in my present
and future cases.
Respectfully, I request you to create at every level, local, state, federal, UN, a new public

12

department, the Public Auditing, independent of all political parties; the Director of the Public Auditing
shall be an ethical, reputed professional voted by and liable to the citizens. The Public Auditors will
audit professionally all the public activities and budgets annually and prosecute all abusers and all

15

politicians who do not respect their electoral promises.
2 4 . The fact that I am not able (due to the injuries of my cognitive skills) to know all the rules of
procedure, does not prove that my action has no merit, but that the Courts have to offer the help of a

18

licensed, independent attorney to represent me, or to respond by giving me the detailed instructions,
information and time I need to correct the problems. For proper justice and civilization and for the
progress of our state and country, urgently, respectfully, I request you to create -and ask the legislators

21

to approve, too- a new Public Office with a name such as "Public Civil Attorney Assistance for Persons
with Cognitive Injuries". Respectfully, I request you to order all Courts to offer free access to the
relevant legal books and to computers with Lexis, Westlaw, or other such complete, electronic, legal

24

research services. "At a speech in June at the American Constitution Society, Tribe called Americans'
access to justice a "dramatically understated" crisis, Main Justice reports. "The whole system of justice
in America is broken," Tribe said. "The entire legal system is largely structured to be labyrinthine,

27

inaccessible, unusable.' http://vvww.abajournal.com/news/article/middleclass_dilemmacantafford_lawyers_cant_qualify_for_legal_aid. "We must develop a judicial climate
in which people who lack money to hire a lawyer have a reasonable chance to vindicate their rights." —

30

Hon. Wallace Jefferson, Chief Justice of Texas.
Page 18/19

25. Indeed, the dismissal of my case is wrong no matter what reasons the judges below invoke, such as
defective notice, to avoid the real, imperative issue that the Respondents have not returned my money.
3

26. A religious text writes "Verily I say unto you, inasmuch as ye have done it unto one of the least of
these my brethren, ye have done it unto me. [You will have to pay proper compensation.]" (The
Christian Religion's New Testament, Matthew 25:40). Indeed, by hurting me, the offenders hurt you

6

and all other people, too. Let's publicize that wisdom for every human being on the planet to know -and
re-publicize it periodically for the persons with injured memory to rehear it-.

9

CONCLUSION
Respectfully, I request you to grant my petition for a writ of certiorari.
Respectfully submitted,

12

Valentin Spataru

c/o CILK - Center for Independent Living
15

103400 Overseas Hwy. #243, Key Largo, FL 33037
Mobile cell phone: 305 615 0061,
Email: valentin.spataru.macc.cpa@gmail.com , valespa@outlook.com

18

Page 19/19

